No. 20-255

 

 

IN THE

Supreme Court of the United States

MAHANOY AREA SCHOOL DISTRICT,

Petitioner,
v.

B.L., A MINOR, BY AND THROUGH HER FATHER
LAWRENCE LEVY AND HER MOTHER BETTY LOU LEVY,

Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

BRIEF FOR AMICI CURIAE CYBERBULLYING
RESEARCH CENTER, COMMITTEE FOR
CHILDREN, COUNCIL OF ADMINISTRATORS
OF SPECIAL EDUCATION, GARDEN STATE
EQUALITY, THE BULLY PROJECT, TYLER
CLEMENTI FOUNDATION, STOMP OUT
BULLYING, ONE CIRCLE FOUNDATION AND
SEL4NJ IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

5,675 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 24, 2021.

 

Wilson-Epes Printing Co., Inc.
